No.

IN THE
SUPREME COURT OF THE UNITED STATES

m
k

2L

In re. Amro Elansari,
Petitioner;

ON PETITION FOR A WRIT OF MANDAMUS TO THE

FILED
AUG 0 3 2020
SUPREFMEFCo{jRTLMgK

THIRD CIRCUIT COURT OF APPEALS

Amro Elansari
901 West Chester Pike
West Chester, PA 19382

QUESTION PRESENTED
1. Does the failure of the Third Circuit - and other courts - to consider the Plaintiffs
substantive due process claims applied to the prohibition of cannabis - constitute a
violation of the Plaintiffs due process rights.
(Suggested Answer: Yes - the Plaintiff - a law student - who intentionally had themselves
caught with a bit of marijuana so they could challenge the constitutionality of the
prohibition of cannabis under the theory of substantive due process - has instead * had
the federal judges - issues opinions about ‘class of one’ and ‘equal protection’ theory - but
not ‘substantive due process’. If they would - Petitioner would win - but instead - they mis
- represent and miscategorize the arguments of the Petitioner - pick a few of the weaker
points they can find - and represent this to be the totality of the Plaintiffs arguments)
Petitioner is seeking a writ of mandamus to compel the Third Circuit to decide on the
merits of the Plaintiffs claim • Substantive Due Process Applied To Cannabis Prohibition
o As it impacts minorities unequally
o As the representation of it as with no medicinal value is false - and
made with such a reckless degree of falsity given current knowledge
that the representation of such is tantamount to fraud which is a due
process violation in and of itself
o The medicinal necessity and use of the cannabis that has been
widely recognized and accepted since the past.
Instead of
• Class of one theory
• Equal protection theory
• Whatever other theory considered that is not the above pled claim.
And ther it makes it look as if the Petitioner is the one who doesn’t know the law..
The complaints of courts have spent as much as 5 years circling around this central
argument of the Plaintiff instead of answering it directly - to which the Plaintiff files the
instant petition for writ of mandamus. Surely this is an injustice.
(2) Does the Third Circuit Opinion dated 7/31/2020 in case 19-1106 - in any way-answer
the Petitioner’s substantive due process claims in their Supplemental Brief?
(Factual Answer: Absolutely Not.)

I

LIST OF PARTIES
All parties do not appear in the caption of the case on the cover page. A list of all parties
to the proceeding in the court whose is party to this original action is as follows:
1. PETITIONER - Amro ELansari
2. RESPONDENT - THE THIRD CIRCUIT COURT OF APPEALS
3. RESPONDENT - JUDGE SWARTZ
4. RESPONDENT - JUDGE RESTREPO
5. RESPONDENT - JUDGE GREENBERG
6. RESPONDENT - JUDGE AMBRO
7. RESPONDENT - JUDGE KRAUSE
8. RESPONDENT - JUDGE JORDAN
9. RESPONDENT - THE UNITED STATES
10. RESPONDENT - THE COMMONWEALTH OF PENNSYLVANIA
11. RESPONDENT - PENN STATE DICKENSON SCHOOL OF LAW
12. RESPONDENT - CENTRE COUNTY COURTHOUSE
13. RESPONDENT - STATE COLLEGE POLICE DEPARTMENT
14. RESPONDENT - CENTRE COUNTY DISTRICT ATTORNEY’S OFFICE
15. RESPONDENT - CENTRE COUNTY CORRECTIONAL FACILITY
16. RESPONDENT - TOWN OF BLOOMSBURG
17. RESPONDENT - COLUMBIA COUNTY DISTRICT ATTORNEY’S OFFICE
19. RESPONDENT - COLUMBIA COUNTY COURTHOUSE

RELATED CASES
1. THIRD CIRCUIT -19*1106 - Elansari v. USA et al - decision complained of - refused to
address substantive due process claims.

ill

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
INDEX TO APPENDICES
APPENDIX A - THIRD CIRCUIT OPINION 19-1106 DATED 7/31/2020
APPENDIX B - PETITIONER’S SUPPLEMENTAL BRIEF APPROVED 7/31/2020

IV

TABLE OF AUTHORTTFES CITED
GASES
Gonzales v. Raich (2005)

10

STATUTES AND RULES
U.S. Constitution Amendment 14 - Due Process Clause

8, 10

Rule 20 Supreme Court on Extraordinary Writs

8

v

OPINIONS BELOW
Petitioner respectfully prays that a writ of mandamus be issued pertaining to the matter
referenced below VfFor Cases from federal Courts
The opinion of the United States court of appeals appears at Appendix A to this
petition and is unpublished.

1

JURISDICTION
Petitioner files the instant petition for a writ of mandamus seeking to compel the Third
Circuit and lower authorities to address the substantive due process claims raised by the
Plaintiff in their legal writing - pursuant to Rule 20 of the Rules of the Supreme Court and does this because there is no other authority but the Supreme Court that is suitable
to administrate supervisory authority on an a US Appellate Court hut the Supreme Court
- thereby giving rise to the filing of the instant original action.

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The following is a brief summary of the constitutional and statutory provisions involved:
1. U.S. Constitution Amendment 14 - Substantive Due Process

3

STATEMENT OF THE CASE
I - Petitioner - Amro Elansari - somewhat foolishly - smoked a small bit of marijuana
intentionally in front of officers at a graduation ceremony - specifically so that I could
challenge the prohibition of cannabis under the theory of substantive due process (1)
how it impacts minorities unequally (2) how the representation of cannabis as dangerous
is false - with reckless degree of falsity tantamount to fraud / violation of due process (3)
medicinal use (prescription and over the counter) (4) unreasonable, arbitrary,
capricious, - etc etc etc.
And instead of getting decision on these merits - the Courts have instead taken any little
word they can find in a pro se litigants filings to misconstrue - misrepresent - ignore - and
sometimes even specifically not consider - these arguments - and dismiss the case My foolishness was not with smoking cannabis and thinking I could have the prohibition
of it found unconstitutional based on the theory of substantive due process - that was
correct..
No - my foolishness was with my trust in the American due process system that my
arguments would be heard and truthfully considered.
Instead - what I have gotten is such a level of scoffing at the claim - and such a wilful
refusal to consider the claims therein A claim that was specifically remanded in Gonzales v. Raich (2005) for further
consideration - look at the quote!
v
Respondents also raise a substantive due process claim and seek to avail themselves of the
medical necessity defense. These theories of relief were set forth in their complaint but
were not reached by the Court of Appeals. We therefore do not address the question
whether judicial relief is available to respondents on these alternative bases. We do note,
however, the presence of another avenue of relief. As the Solicitor General confirmed
during oral argument, the statute authorizes procedures for the reclassification of Schedule
I drugs. But perhaps even more important than these legal avenues is the democratic
process, in which the voices of voters allied with these respondents may one day be heard
in the halls of Congress. Under the present state of the law, however, the judgment of the
Court of Appeals must be vacated. The case is remanded for further proceedings consistent
with this opinion.
It is so ordered.

4

So - how can then - the Plaintiffs claims of substantive due process - be of such frivolous
or erroneous nature - that warrants summary dismissal? Ask the Third Circuit.
How does - the U.S. District Court Judge Mannion - know that my claims are not different
than the Oakland Cannabis Collective Buyers case in (2001)
• They claimed constitutional right to buy and sell cannabis
I am claiming
• The pot laws treat minorities unequally which is grounds for unconstitutionality
• The pot laws represented as without medical use is made with such reckless
degree of falsity tantamount to fraud in violation of due process
• Pot is used as medicinal necessity for people - has over the counter (OTC uses as
well)
How is Judge Mannion able to conclude on my claims - in 2015 - based on a case from
2001 - without having even heard my claims yet My complaint said pot laws were a violation of due process -1 never said which way He assumed I meant in a way previously discussed in a case -1 was simply starting my
case and building up my arguments Instead of being able to so - he completely precluded that branch of the case from me thereby making the rest of my case fall through itself So then on appeal in the Third Circuit - the appeals Court has my case
I wrote a specific Supplemental Brief 2020 - with my best egal writing as I improved so
much over the years.
And I wrote specifically - in that brief enclosed herein • The pot laws treat minorities unequally which is grounds for unconstitutionality
• The pot laws represented as without medical use is made with such reckless
degree of falsity tantamount to fraud in violation of due process
• Pot is used as medicinal necessity for people - has over the counter (OTC uses as
well)
5

And instead - the Third Circuit issues a decision enclosed here in - that addresses
• Equal protection theory
• Class of one theory
• Substantive due process applied to Penn State Law claims But not my main - case winning claim • Substantive due process applied to pot o In the many different ways I represented
Their refusal to consider this makes it so that my argument is not even considered in my
appeal as of right - let alone for it to be considered on appeal to the Supreme Court If this Court will not join me in declaring the prohibition of cannabis in its various forms
as unconstitutional as it truly is (you know between yourself and God) - then this Court
should surely join me in declaring the processing of the lower courts in this matter as
very far from the due process that is owed to every single individual which is to have
their arguments considered as they are based on the merits Specifically - and God Let It Be Known Of This Claim
The Third Circuit has a very specific practice where they mistwist - misshape miscategorize the arguments of a pro-se litigant - or someone they do not like - to make
them look foolish - even if their claims are legitimate OR - they are really that incompetent - one or the other - but the way in which they make
mistakes is just so reckless - sooo bad -... no - they just don’t respect me - a 29 year old..
It is not just with this case - but with other cases - (JUDGE AMBRO)
This use of legalese and muffling in the midst of legal jargon to suppress opinions is a
common practice and tantamount to institutional racism Separate from the Petitioner’s claims on the prohibition of marijuana.
I - Petitioner - captured the Third Circuit in the act - with this case - as my legal writing
has improved and my legal arguments are sufficient - the error is with the Third Circuit
and lower Courts in their processing of claims.
6

THE REASONS WHY THE PETITION SHOULD ISSUE
Writs of Mandamus by the Supreme Court originally are exceptional - and unless the
complained of Court is the Third Circuit or another Appeals Court - there is really little to
no reason to seek a petition from the Supreme Court directly.
In this case - the complained of entity is the Third Circuit directly - and the matter is not
an appeal - but a petition for writ of mandamus - to which the Plaintiff has no other
venue suitable for original jurisdiction).
This is one important reason why granting this appeal is important.
The second reason is that the action complained of is - so - far - from what is acceptable that it warrants compelling action
How can • The petitioner reading constitutional law cases in the textbook in law school
seeing how the Court frames its arguments with a thorough -1 and 2 - back and
forth - of the arguments - and then holding Turn into • The petitioner not even having their arguments - merits - claims - assessed as they
represented them in their brief Granted the Petitioner is not the best legal writer in the world or even a lawyer yet - but
from the very first day the claim was - substantive due process applied to pot - and since
then has been - a refusal based on prejudice to even consider the claim - due to some
erroneous reasons that it has already been decided in another case.
This Court specifically remanded the claim in Gonzales v. Raich (2005) for remanding
under substantive due process - under which 100 different claims could arise - how can
then these Courts dismiss this claim as entirely erroneous and implausible.
This case has done tremendous damage to me - not because I was wrong in my legal
argument conclusions - but because I trusted the Courts to hear my case out - and they
failed me in this regard.

7

I am asking this Court to review
• My Supplemental Brief - 2020
And
• The Third Circuit Decision Issued And tell me if that opinion answers the claims raised in that supplemental brief If not - the Third Circuit should be compelled to answer those merits - as the tactics
utilized by the Third Circuit and Federal Courts complained of herein have certainly gone
far beyond the standard of acceptable due process.
The truth is -1 haven’t even started to plead my case of unconstitutionality I filed my case of unconstitutionality - it was presumed that my case was like older ones
and dismissed - and I still have not presented my claims that I paid $400 for and that no
one before me has made So how is it then due process for this to take place as it has.
I ask you for your decision in writing to signify the true meaning and value of the
American due process system as it is now in 2020 Are we the same Plessy v. Ferguson (1896) United States?
Or are we a post Brown v. Board of Education (1954) United States?
You decide with the instant matter. God bless you all.

8

ON THE SUBSTANTIVE DUE PROCESS MATTER
The Third Circuit - and the US District Court
• Are giving ABSOLUTE discretion to legislature banning weed
• Instead of hearing the Plaintiffs arguments as to why it is a violation of rational
basis (and strict scrutiny which should be applied)
The ban on pot • Represented as having no medicinal value despite the knowledge that it is
legalized in 32 states medicinally • Is a representation that is false - made with such reckless level of falsity
tantamount to fraud in Pennsylvania (see - reckless / intentional fraud)
• Which is a violation of due process - and not in rational furtherance of a legitimate
government interest
There is no legitimate government interest in labeling something falsely despite tons of
scientific knowledge and evidence and changes in facts and understanding.
LET ALONE
• The ACLU putting out reports on how the Pot laws are enforced against minorities
unequally from 2016 onward Were those in any way addressed by the Third Circuit in their opinion or ever?
Examine • MY SUPPLEMENTAL BRIEF APPROVED BY ORDER 7/3172020
• THE THIRD CIRCUIT OPINION ISSUED 7/31/2020
Please issue the instant mandamus.
I never had a chance to argue my case - they just prejudiced me and precluded me from
day one when I filed in the US District Court - to now 5 years later in 2020 with the
instant Third Circuit Decision
The opinions and briefs speak for themselves 9

Specifically - The representation of the Third Circuit - that they considered the
arguments in my brief Is a representation that is false Either made intentionally Or with reckless disregard to the knowledge of its falsity - fraud
And it is specifically what I complain of in the instant matter on mandamus They did it in 2015 - twisting my arguments to render a negative decision And they’re doing it again now in 2020 - refusing to consider substantive due process.
If they were to only consider substantive due process -1 would succeed But they keep refusing to answer the questions the Petitioner is raising These people - SHWARTZ - RESTREPO - GREENBERG - AMBRO - JORDAN - KRAUSE FROM THE THIRD CIRCUIT US JUDGE MANNION - MAGISTRATE SCHWAB They refuse to answer my substantive due process claims day one - under some
erroneous premise that it has already been decided (which it has not)
And have been taking my time for 5 years with legalese and procedure And I think the evidence - in the writing between my brief aid their opinion Shows that I am the stronger arguer -1 have the stronger argument My legal writing could be better if I had a paralegal touch up my minor details - but my
arguments completely succeed and are correct It is their refusal to answer my questions head on - that is a violation of due process in
and of itself CONCLUSION
10

The Supreme Court’s supervisory control of the lower courts has never been in
more need in this case where a Court has high as the Third Circuit has gone so far from
the standards of due process as to not consider the claims represented by the Plaintiff in
their briefs and claims - and prejudicing them by presuming that their claims are
identical to claims that have been made in other cases. Surely - this warrants compelling
intervention - especially since this Court remanded substantive due process to pot law
claims in Gonzales v. Raich (2005) - thereby demonstrating the non-frivolous and
non-erroneous nature of the Petitioner’s claims - claims that the Petitioner never had an
opportunity to present because the U.S. District Court ruled prejudicially and precluded
arguments on these claims and this was affirmed by the appeals court - without
considering my substantive due process claims raised on appeal in my supplemental
brief.
Surely - someone at the Supreme Court - sees an issue with this - outside of the
issue of what my claims / merits are in the first place.
I trust that upon seeing the same - evidence in writing attached to this case - will
inspire action among you - hopefully in the form of granting the instant petition.
This - is nothing more than wealthy and experienced lawyers and judges taking
advantage of and bullying around average common individual pro se litigants - nothing more.
I - was - never - provided - with - the - opportunity -to- have - my - substantive due -process - claims - applied -to- the - pot - laws - addressed -by- the - Court.

11

It really says a lot - that a pro se law student - has to go as far as seeking mandamus
against the Third Circuit in the Supreme Court originally How bad is this Court really..
And how far has the Petitioner made it - to be going as far as to be seeking original
mandamus in the Supreme Court of the United States with regards to this matter PETITION OF WRIT OF MANDAMUS SHOULD BE GRANTED.
I would be happy to brief this matter with further details and information if it is decided
that briefing is required.
Dated: Augus#3, 2020

Resi

12

ully Submitted,

